PROOF OF SERVICE
I, the undersigned, declare that I am employed in the city of Los Angeles,
California. I am over the age of eighteen (18) years and I am not a party to the within
action.
On February 11th - 20211 served the following document:
APPELLANT’S PETITION FOR WRIT OF MANDAMUS AND WRIT OF
CERTIORARI TO THE UNITED STATES SUPREME COURT
AND APPENDIXES
[X ] BY MAIL-1 placed each such sealed envelope, with postage thereon
fully prepaid for first class mail, for collection and mailing at Los Angeles,
California, following ordinary business practices.
SEE SERVICE LIST
[ ]
STATE-1 declare under the penalty of perjury under the laws of the State of
California that the foregoing is true and correct.
I declare under penalty of perjury under the laws of the United
States of America the foregoing is true and correct.
DATED: February 11th , 2021

Stan Bethel

41

